021No. 20-5795
IN THE SUPREME COURT OF
THE UNITED STATES
DON TEDFORD

Petitioner
v.
PENNSYLVANIA
Respondent
ON PETITION FOR WRIT OF CERTIORARI TO THE
SUPREME COURT OF PENNSYLVANIA
BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI
JOSH SHAPIRO
Attorney General
Commonwealth of Pennsylvania
JENNIFER C. SELBER
Executive Deputy Attorney General
Director, Criminal Law Division
JAMES P. BARKER
Chief Deputy Attorney General
Appeals & Legal Services Section
WILLIAM R. STOYCOS *
Senior Deputy Attorney General
Counsel of Record
Office of Attorney General
16th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 787-6348

TABLE OF CONTENTS
Page

TABLE OF CONTENTS ............................................... i
TABLE OF CITED AUTHORITIES ............................ ii
COUNTER-STATEMENT OF THE CASE ..................1
REASONS FOR DENYING THE WRIT ....................18
CONCLUSION ............................................................27

i

TABLE OF CITED AUTHORITIES
Page(s)
Cases

Brady v. Maryland, 373 U.S. 83 (1963)………………23
Clay v. United States, 537 U.S. 522 (2003)…….……21
Commonwealth v. Gamboa-Taylor, 753 A.2d 780
(2000),…………………………………………………..….13

Commonwealth v. Peterson, 192 A.3d 1123 (2018)…14
Commonwealth v. Robinson,139 A.3d 178 (2016).….14
Commonwealth v. Tedford, 567 A.2d 610 (Pa. 1989)...2
Commonwealth v. Tedford, 960 A.2d 1, 47 (Pa. 2008).2
Commonwealth v. Tedford, 78 A.2d 1167 (Pa. 2001)...3
Commonwealth v. Tedford, 228 A.3d 891 (Pa.
2020)………………………………………………….passim
Commonwealth v. Turner, 80 A.3d 754, 767 (2013)..17
Commonwealth v. Williams, 86 A.3d 771 (Pa. 2014).25
Custis v. United States, 511 U.S. 485 (1994)………..18
Daniels v. United States, 532 U.S. 374 (2001).….…..18
Dennis v. United States, 384 U.S. 855 (1966)……….24

ii

Johnson v. United States, 544 U.S. 295 (2005)……..18
Logan v. Zimmerman Brush Co., 455 U.S. 422
(1982)……………………………………………………....20

Michel v. Louisiana, 350 U.S. 91 (1956)……………..19
Parke v. Raley, 506 U.S. 20 (1992)…..………………..19
Pennsylvania

v.
Finley,
481
U.S.
551
(1987)………………………………………….…..19, 24
Tedford v. Beard et al., Civil Action No. 09-409 (E.D.
Pa. Nov. 12, 2014)…………………………………………7

Weatherford v. Bursey, 429 U.S. 545 (1977)…….….24
Williams v. State of Georgia, 394 U.S. 375 (1955)…19
Constitutional Provisions and Statutes
18 Pa.C.S.A. § 2502(a)……………………….……………1
18 Pa.C.S.A. § 3121(a)………………………….…………1
18 Pa.C.S.A. § 9101 et seq……………………….……….4
42 Pa.C.S.A. § 9541 et seq.,……………………………...1
42 Pa.C.S.A. § 9545…………………………..……passim
42 Pa.C.S. § 9711(d)………………………………………1
65 P.S. § 67.101 et seq.,………………………………….4
iii

Rules
United States Supreme Court Rule 10………………26
Pennsylvania Rule of Criminal Procedure
909…………………………………………………………..9

iv

COUNTER-STATEMENT OF THE CASE
On January 10, 1986, 22-year-old Jeanine
Revak (“the victim”) was raped and murdered in
Butler County, Pennsylvania. The autopsy revealed
that her cause of death was asphyxia ligature
strangulation with bilateral pulmonary collapse and
severe hemorrhaging. Her dead body was found lying
in a remote rural area of Washington County,
Pennsylvania on January 11, 1986.
On February 6, 1987, following the guilt phase of a
trial, a jury of Donald Tedford’s (“Tedford”) peers
found him guilty of first-degree murder1 and rape2 in
connection with Ms. Revak’s death. At the penalty
phase of the trial, the jury found two aggravating
circumstances3 and no mitigating circumstances4 and

1

18 Pa.C.S.A. § 2502(a)

2

18 Pa.C.S.A. § 3121(a)

The two aggravating circumstances found by the
jury were: (1) Tedford committed the killing while in
the perpetration of a felony (rape), 42 Pa.C.S. §
9711(d)(6); and (2) Tedford had a significant history of
felony convictions involving the use or threat of
violence to the person, 42 Pa.C.S. § 9711(d)(9).
3

Tedford elected to present no mitigating evidence to
the jury during the penalty phase. The Pennsylvania
Supreme Court has previously found that Tedford was
mentally competent and that his refusal to present
4

1

returned a sentence of death. On March 20, 1987, the
trial court formally imposed on Tedford a sentence of
death for the murder conviction and a consecutive
term of imprisonment of 8.5 to 17 years for the rape
conviction.
On December 13, 1989, the state Supreme Court
unanimously affirmed Tedford’s judgment of sentence
on direct appeal. See Commonwealth v. Tedford, 567
A.2d 610 (Pa. 1989). Tedford did not seek review of
that decision by this Court.
On July 12, 1995, Tedford filed a pro se petition
under the Post-Conviction Relief Act (“PCRA”), 42
Pa.C.S.A. § 9541 et seq., collaterally attacking his
judgment of sentence. The PCRA court dismissed
that petition and on July 16, 1996 appointed PCRA
counsel (“first PCRA counsel”), who filed a counseled
amended PCRA petition on January 15, 1997.5 On
January 28, 2000, the PCRA court dismissed the
counseled petition as an untimely second PCRA
petition. On October 18, 2001, the state Supreme
Court reversed that determination and directed the
lower court to treat the petition filed on January 15,

such evidence against his counsel’s advice did not
render his trial counsel ineffective or require a new
penalty phase. See Commonwealth v. Tedford, 960
A.2d 1, 47 (Pa. 2008).
First PCRA counsel were experienced attorneys from
the Federal Community Defenders’ Organization for
the Eastern District of Pennsylvania, Capital Habeas
Unit (“the FCDO”).
5

2

1997 as a timely counseled, amended first PCRA
petition and to entertain the merits of Tedford’s
claims. See Commonwealth v. Tedford, 78 A.2d 1167
(Pa. 2001).
The PCRA court thereafter permitted the filing of
another counseled, amended first PCRA petition.

That petition – which contained 80 claims of
ineffective assistance of trial counsel – was the subject
of a three-day evidentiary hearing. On March 5, 2004,

the PCRA court denied all of the claims for lack of
merit except one, namely a claim that Tedford’s trial
counsel had a conflict of interest at the time of trial.
Following an evidentiary hearing on that claim, the
PCRA court on July 16, 2004 found that claim to also
be without merit and denied relief. On November 19,
2008, the state Supreme Court affirmed the PCRA
court’s denial of PCRA relief in an extensive and
thorough Opinion. See Commonwealth v. Tedford,
960 A.2d 1 (Pa. 2008).
In 2009, Tedford’s first PCRA counsel filed a
counseled petition for writ of habeas corpus (“the
habeas petition”) in the United States District Court
for the Western District of Pennsylvania (“the federal
district court”) alleging that Tedford’s judgment of
sentence violated his federal constitutional rights.6
Thereafter, Tedford’s counsel – now federal habeas
corpus counsel -- filed a voluminous motion for
discovery, which was, with one exception, denied by

The habeas petition – still pending -- alleges the
existence of 17 different grounds for the grant of a
new trial and/or sentencing.
6

3

the federal district court in a thoughtful and
comprehensive Opinion and Order.
Tedford subsequently filed a second counseled
discovery motion in federal court, this time seeking
materials above and beyond those sought in the first
discovery motion.
More specifically, the second
discovery motion sought the entire investigation file of

the Pennsylvania State Police (“PSP”) relating to the
murder of Jeanine Revak. Prior to filing this motion,

Tedford’s first PCRA counsel had sought the PSP
investigation file via a Pennsylvania Right to Know
Act (“RTKA”) request, see 65 P.S. § 67.101 et seq.,
which was mostly denied by the PSP on the grounds
that such a production of criminal investigation
materials is prohibited by the RTKA as well as by
Pennsylvania’s Criminal History Record Information
Act, 18 Pa.C.S.A. § 9101 et seq. (“CHRIA”). In
connection therewith, the PSP provided an 18-page
index listing, for each record in its possession
regarding the rape and murder of Jeanine Revak, the
record type and record subject as well as the statutory
provision that barred the record’s disclosure to
Tedford (“the PSP index”).
Instead of appealing this decision to the
Pennsylvania Office of Open Records (“the OOR”) in
conformity with the governing state law, see 65 P.S. §
67.1101, Tedford instead opted to file the second
federal habeas discovery motion which asked the
federal district court to compel the PSP to produce its
entire investigation file to Tedford. In other words,

Tedford asked the federal district court to negate
PSP’s RTKA determination. During a hearing on the
second motion for discovery, however, Tedford’s
4

counsel informed the federal judge that they did not
seek an appeal with the OOR because they believed

the PSP decision on Tedford’s RTKA request was in
full accordance with the governing state law.

On June 30, 2011, the federal district court denied
that motion. On September 11, 2012, that court
granted a motion filed by Tedford to provide him with
replacement counsel due to irreconcilable differences
with the FCDO.7 The new counsel (“current PCRA
counsel”) filed an extensive third discovery motion in
federal court seeking 20 categories of information

Tedford informed the federal district court in a
publicly-filed pro se pleading that the FCDO used
deception and false evidence while representing him
in the first state court PCRA proceedings – including
in the state Supreme Court – in an effort to advance
its anti-death penalty agenda at the expense of his
personal interests and clearly-articulated objectives in
the litigation (10/11/11 Request for Leave to File Pro
Se Objections to Counsel’s Motion to Reconsider filed
in the United States District Court for the Western
District of Pa. at Civil Action No. 09-409) (not sealed).
7

5

based on the PSP index.8 On September 29, 2014, the
federal district court denied that motion.9
On November 7, 2014, Tedford’s current PCRA
counsel filed in the federal district court a “motion to
expand the appointment of counsel.” In the words of
the federal district court:
…In this motion, Petitioner explains that
because he has not had success obtaining the
discovery he seeks in this federal habeas
proceeding, he intends to file another postconviction motion in state court and pursue
his discovery and whatever additional
remedies he may have there. Petitioner asks
that this Court exercise its discretion…and
expand the scope of appointment of his
current federal habeas counsel so that they
can represent him in the state proceeding that
he intends to pursue.

The third motion for discovery falsely represented to
the federal district court that seeking discovery in a
Pennsylvania PCRA proceeding is “an exercise in
futility” and that “the Pennsylvania rules and
practices foreclosed him” from obtaining discovery.
8

The judge who disposed of the third discovery
motion was not the same judge who disposed of the
first two discovery motions. Tedford was given a
“second set of eyes” to review his claimed entitlement
to review the Commonwealth’s files and the result
was the same.
9

6

Tedford v. Beard et al., Civil Action No. 09-409 at 5
(E.D. Pa. Nov. 12, 2014) (emphasis added).
The
federal district court denied that motion but stayed
the federal habeas proceedings, explaining:
…[A]s the litigation of his third motion for
discovery demonstrates, what Petitioner
essentially wants to do is relitigate his state
criminal trial and conduct additional
discovery so that he can see if there are any
new claims that may be available to him.
Because he cannot do either of those things in
this federal habeas proceeding, Petitioner has
decided he now wants to pursue another state
post-conviction proceeding. If that is the
course of action he wants to take next, the
Court will stay this proceeding during the
pendency of that state action. But after
considering all relevant facts, the Court
declines to authorize the use of federal
resources as Petitioner litigates another state
collateral action.

Id. at 5-6 (emphasis added).
One month later, Tedford filed a purportedly pro
se second PCRA petition in the state PCRA court.
This was filed 24 years, eight months, and 19 days
after Tedford’s judgment of sentence became final on
direct appeal and six years and 13 days after the
Pennsylvania Supreme Court’s affirmance of the
denial of the first PCRA petition. The PCRA court
appointed current PCRA counsel to represent Tedford.
On May 5, 2015, Tedford’s counsel filed a highly
anomalous pleading in the PCRA court entitled:
7

Consolidated Pleadings: Amended Petition
Pursuant to the Post Conviction Relief Act,
Petition for Reconsideration of June 12, 2002
Order of the Court, First PCRA Filing, and
Request to Amend that Filing, Petition for
Writ of Habeas Corpus Pursuant to Tile 42
PA.C.S. § 6503, Petition for Relief Pursuant to
Article I, § 11 of the Constitution of the
Commonwealth, and Motion for DNA
Testing.10
On June 9, 2015, Tedford’s counsel filed an
additional pleading in the PCRA court which they
characterized as a “Supplement to Petition Pursuant
to the Post Conviction Relief Act Based on Newly
Discovered Evidence.”11
The Commonwealth filed a timely response to
these pleadings on September 18, 2018. On October
9, 2018, the PCRA court filed a notice of its intention

As explained infra, this pleading was a dressed-up
request for discovery of the Commonwealth’s files
decades after his trial had concluded. Accordingly,
this pleading is referred to herein as “the consolidated
PCRA discovery request.”
10

This pleading, which asserts a claim based on an
April 20, 2015 joint press release regarding FBI
testimony on hair comparison analysis over a 20-year
period, is referred to herein as “the hair analysis
claim.”
11

8

to dismiss all of the claims without an evidentiary
hearing pursuant to Pa.R.Crim.P. 909(B)(2)(a).
Tedford filed a response thereto, in which he
acknowledged that he was required by law to file his
DNA testing request in a separate motion and sought
permission to do so.
On February 11, 2019, the PCRA court filed an
Order holding that: (1) with the exception of the
request for DNA testing, all of the claims contained in
the consolidated PCRA discovery request were filed
untimely and the court lacks jurisdiction to consider
their merits, requiring dismissal of the claims; (2) the
court has jurisdiction to consider the hair analysis
claim but denies that claim for lack of substantive
merit; and (3) Tedford is granted leave to file an
amended motion requesting DNA testing in
conformity with 42 Pa.C.S.A. § 9543.1 within 60 days,
i.e. by April 12, 2019.12
On March 4, 2019, Tedford timely appealed the
PCRA court’s disposition to the state Supreme Court.
On April 22, 2020, the Pennsylvania Supreme Court
filed a unanimous Opinion affirming the PCRA court’s
disposition below, including the determination that
Tedford’s consolidated PCRA discovery request was
untimely-filed and that the PCRA court lacked
jurisdiction to consider it on the merits.
See
Commonwealth v. Tedford, 228 A.3d 891 (Pa. 2020).
With regard to the timeliness of the second PCRA
petition, the Court stated:

12

Tedford did not subsequently file such a motion.
9

For his first claim, Tedford asserts that the
PCRA court erred in dismissing his second
counseled PCRA petition as untimely. This
Court has consistently held that the PCRA's
time restrictions are jurisdictional in nature
and that a PCRA court must, before
considering the merits of claims asserted in a
PCRA petition, first make a threshold
determination whether each claim was timely
filed.
In the vast majority of cases, if a PCRA
claim is not timely filed, the PCRA court must
dismiss it. Section 9545(b) of the PCRA
establishes a one-year time bar for the filing of
PCRA claims, with three exceptions.

Id. at 904 (citations omitted).
The statutory exceptions referenced by the state
Supreme Court – which could be fairly characterized
as equitable exceptions – permit a collateral attack
beyond one year under the following circumstances:
(i) the failure to raise the claim previously
was the result of interference by government
officials with the presentation of the claim in
violation of the Constitution or laws of this
Commonwealth or the Constitution or laws of
the United States;
(ii) the facts upon which the claim is
predicated were unknown to the petitioner
and could not have been ascertained by the
exercise of due diligence; or

10

(iii) the right asserted is a constitutional right
that was recognized by the Supreme Court of
the United States or the Supreme Court of
Pennsylvania after the time period provided
in this section and has been held by that court
to apply retroactively.
42 Pa.C.S.A. § 9545(b).
The state Supreme Court continued:
We [have] summarized the statutory language
of Section 9545(b)…as follows:
A PCRA petition, including a second
or subsequent one, must be filed
within one year of the date the
petitioner's judgment of sentence
became final, unless he pleads and
proves one of the three exceptions
outlined in 42 Pa.C.S. § 9545(b)(1). A
judgment becomes final at the
conclusion of direct review by this
Court or the United States Supreme
Court, or at the expiration of the time
for seeking such review. ... The PCRA
squarely places upon the petitioner
the burden of proving an untimely
petition fits within one of the three
exceptions. The PCRA further requires
a petition invoking one of these
exceptions to be filed within 60 days of
the date the claim could have been
presented.

Tedford, 228 A.3d at 905.
11

The Court noted that the one-year limitation
period expired on January 16, 1997 and that the
PCRA court only had jurisdiction to consider the
second PCRA claims if one of the exceptions was
pleaded and proved. The Court determined that
Tedford had failed to do so:
Tedford contends that he was entitled to
file his current PCRA petition based upon the
newly discovered facts exception, which
provides that “the facts upon which the claim
is predicated were unknown to the petitioner
and could not have been ascertained by the
exercise of due diligence.” He argues that the
“facts” which permitted the filing of his
present
PCRA
petition
include
the
“revelations” in the PSP's March 4, 2011 letter
in response to his RTKL request. In
particular, he posits that prior to receipt of
this letter, he had from the time of trial been
assured by the Commonwealth that the 375
pages of documents that he had received in
discovery was the sum total of the documents
available for discovery. The March 4, 2011
letter and attachment, however, revealed that
the PSP had more than 800 documents in its
possession, demonstrating that Tedford had
received only about 40 to 45% of the PSP's
files.
Tedford does not deny that he failed to file
his current PCRA petition within sixty days of
receipt of the PSP's March 4, 2011 letter.
Indeed, he did not file his current PCRA
petition until December 2, 2014, well over
12

three years after the receipt of the PSP's
letter. Tedford argues, however, that this
lapse in time should be excused, as it was the
result of his prior counsel's ineffectiveness. He
posits that upon receipt of the PSP's letter, his
prior counsel should have immediately filed
(i.e., within sixty days) a new PCRA petition.
The PCRA court rejected this argument,
pointing out that Tedford's focus on the
ineffectiveness of “prior counsel” was
misguided, since his present counsel was
appointed to represent him in his federal court
habeas proceedings on September 11, 2012.
As such, Tedford did not file the current

PCRA petition until more than two years after
new counsel was appointed…
Tedford's contention, namely that the
requirement that a PCRA claim based upon
the newly discovered facts exception in
Section 9545(b)(1)(ii) must be filed within
sixty days from the date on which it could
have been presented “did not apply to him”
because of his prior counsel's ineffectiveness
overlooks that this Court has repeatedly held
that claims of ineffectiveness do not overcome
the statutory time limitations of the PCRA
statute. In Commonwealth v. Gamboa-Taylor,
562 Pa. 70, 753 A.2d 780, 786 (2000), for
example, we stated that “claims of PCRA
counsel's ineffectiveness do not escape the
PCRA one-year time limitation merely
because they are presented in terms of current
counsel's discovery of the ‘fact’ that a previous
attorney was ineffective.” More recently, in
13

Commonwealth v. Robinson, 635 Pa. 592, 139
A.3d 178 (2016), we observed that “it is wellsettled that couching a petitioner's claims in
terms of ineffectiveness will not save an
otherwise untimely filed petition from the
application of the time restrictions of the
PCRA.” We have also consistently held that
courts have no power to carve out equitable
extensions
to
the
PCRA's
timeliness
requirements.
In an effort to avoid these rulings by this
Court, Tedford cites to Commonwealth v.
Peterson, 648 Pa. 313, 192 A.3d 1123 (2018),
in which this Court held that counsel's
negligence per se in filing an untimely PCRA
petition constitutes adequate grounds to
permit the filing of a new PCRA petition
beyond the one-year time bar pursuant to the
exception
in
subsection
9545(b)(1)(ii).
Peterson involved a unique procedural
context. After being sentenced to consecutive
life sentences for first-degree murder,
Peterson petitioned for post-conviction relief.
Although the docket reflected that an
evidentiary hearing was scheduled, it never
took place and there was no further activity
on the petition for the next fifteen years. The
PCRA court denied the petition on its merits,
but on appeal the Superior Court quashed the
appeal because it had been filed one day too
late
under
the
PCRA's
timeliness
requirements. Peterson then filed a second
petition, seeking, based upon counsel's
ineffectiveness in filing his first PCRA petition
14

late, reinstatement of his PCRA appellate
rights nunc pro tunc to challenge the PCRA
court's order dismissing his first petition. This
Court reversed the Superior Court's quashal
of the second petition on timeliness grounds,
ruling that counsel's untimely filing of
Peterson's first PCRA petition constituted
ineffectiveness per se, “as it completely
deprived Peterson of any consideration of his
collateral claims under the PCRA.” Counsel's
ineffectiveness per se in connection with
Peterson's first PCRA petition was a newly
discovered “fact” under Section 9545(b)(2)(iii),
as the PCRA court had made factual findings
that Peterson did not know about the
untimely filing and could not have ascertained
this fact through the exercise of due diligence.
Given these factual findings, and because
counsel's untimely filing of Peterson's first
PCRA petition constituted ineffectiveness per
se by completely foreclosing him from
obtaining any collateral review, we concluded
that Peterson was entitled to invoke the
subsection 9545(b)(1)(ii) exception to permit
the filing of his second PCRA petition beyond
the one-year time bar.
Tedford argues that his prior counsel's
failure to timely file a new PCRA petition
within sixty days of receipt of the PSP's letter
constituted negligence per se. We disagree, as
even if we assume that prior counsel's (and
current
counsel's)
actions
constituted
ineffective assistance of counsel, said
ineffectiveness was not ineffectiveness per se,
15

as it did not wholly deprive Tedford of
collateral PCRA review. As the PCRA court
correctly
observed,
Tedford
previously

litigated a substantial number of collateral
claims in connection with his first PCRA
petition, including multiple claims of
ineffective assistance by trial and appellate
counsel and numerous contentions that he
had been improperly denied discovery. This
Court thoroughly reviewed the certified record
and affirmed the PCRA's denial of those
claims. Moreover, any ineffectiveness by
counsel
(past
or
present)
has
not
jurisdictionally foreclosed all of Tedford's
current collateral claims, as the PCRA court
considered his microscopic hair analysis and
DNA testing on their merits.
Next, Tedford argues that if his current
PCRA petition is untimely under the
strictures of Section 9545(b), then this
provision of the PCRA is “unconstitutional as
applied.” Again invoking the ineffectiveness
of his prior counsel, he contends that he has a
constitutional right to “receive a fair hearing
in connection with his claims and the effective
assistance of counsel pursuant to the 5th, 6th
and 14th Amendments to the United States
Constitution and Article I § 9 of the
Constitution.” In this regard, he insists that
“[h]is substantive right to seek relief and to a
fair procedure [has been] summarily
repudiated by the mechanical operation of the
statute of limitations.” He further argues that
Article 1, Section 11, sometimes known as the
16

“Remedies Clause,” entitles him to relief from
the ineffectiveness per se of his prior counsel,
as that constitutional provision “ensures that
where legal injury has been sustained there
will always be some way for the individual to
access the courts for relief.”
In his brief filed with this Court, Tedford
makes no attempt to develop these
constitutional arguments. We note that this
Court has rejected prior constitutional
challenges
to
the
PCRA's
timeliness
provisions. In Commonwealth v. Turner, 622
Pa. 318, 80 A.3d 754, 767 (2013), we held that

the
PCRA
“provide[s]
a
reasonable
opportunity for those who have been wrongly
convicted to demonstrate the injustice of their
conviction,” and that “[t]he current PCRA
places time limitations on such claims of
error, and in so doing, strikes a reasonable
balance between society's need for finality in
criminal cases and the convicted person's need
to demonstrate that there has been an error in
the proceedings that resulted in conviction.”
Tedford does not address our reasoning in
Turner and Peterkin.

Tedford, 228 A.3d at 904–08 (citations omitted)
(emphasis added).

17

REASONS FOR DENYING THE WRIT
The Court should deny the petition for writ of
certiorari for multiple reasons: (1) the Pennsylvania
Supreme Court’s enforcement of the state collateral
review statute’s jurisdictional time limitation is
consistent with this Court’s jurisprudence; (2)
Tedford’s petition is grounded in a fundamental
misunderstanding of the governing law; and (3) none
of the compelling reasons for granting a petition for
writ of certiorari outlined in Rule 10 are present.
1. The
Pennsylvania
Supreme
Court’s
enforcement of the PCRA statute’s jurisdictional time
limitation
is
consistent
with
this
Court’s
jurisprudence.
As noted supra, in affirming the lower court’s
finding that the second PCRA petition was untimelyfiled and therefore deprived the state courts of
jurisdiction to consider it, the state Supreme Court
held that the PCRA statute’s time limitation
“provide[s] a reasonable opportunity for those who
have been wrongly convicted to demonstrate the
injustice of their conviction,” and “strikes a reasonable
balance between society's need for finality in criminal
cases and the convicted person's need to demonstrate
that there has been an error in the proceedings that
resulted in conviction.” Tedford, 228 A.3d at 908.
This Court has repeatedly held that a state may
impose reasonable time limitations on collateral
attacks of criminal judgments of sentence asserting
federal constitutional rights. See, e.g., Johnson v.
United States, 544 U.S. 295, 306, 316 (2005); Daniels
v. United States, 532 U.S. 374, 375 (2001); Custis v.
18

United States, 511 U.S. 485, 497 (1994); Michel v.
Louisiana, 350 U.S. 91, 97 (1956); Williams v. State of
Georgia, 394 U.S. 375, 382-83 (1955). Indeed, “[i]t is
beyond question that under the Due Process Clause of
the Fourteenth Amendment [a state] may attach
reasonable time limitations to the assertion of federal
constitutional rights.” Michel, 350 U.S. at 97
(emphasis added).
As the Court has explained:
A defendant convicted in state court
has numerous opportunities to challenge
the constitutionality of that conviction,
but those vehicles for review are not
available indefinitely and without
limitation. Procedural barriers limit
access to review on the merits of
constitutional claims, vindicating the
presumption of regularity that attaches
to final judgments, even when the
question is waiver of constitutional
rights.

Daniels, 532 U.S. at 375 (citing Parke v. Raley, 506
U.S. 20, 29 (1992)). The state has a strong interest in
the finality of judgments, without which confidence in
the integrity of judicial procedures is undermined and
the orderly administration of justice is impaired.
Custis, 511 U.S. at 497.
The United States Constitution does not require
the states to provide avenues for post-conviction relief
much less counsel for post-conviction relief
proceedings. Pennsylvania v. Finley, 481 U.S. 551,
556-57 (1987). When a state chooses to provide such
19

an avenue, which is a civil proceeding, the Due
Process Clause requires that the proceedings be
“fundamentally fair.”
Id. Fundamental fairness
requires that post-conviction petitioners be permitted
“an opportunity ... granted at a meaningful time and
in a meaningful manner for [a] hearing appropriate to
the nature of the case.” See Logan v. Zimmerman
Brush Co., 455 U.S. 422, 437 (1982) (citation omitted)
(emphasis in original)
Pennsylvania
has
afforded
Tedford
a
fundamentally fair opportunity to collaterally attack
his judgment of sentence. In 2004, the PCRA court
conducted a three-day evidentiary hearing and
considered more than 80 separate and distinct
counseled claims for relief presented by Tedford. In
response to Tedford’s complaint that he did not
receive the PSP index until 2011, the Commonwealth
has two responses.
First, the current RTKA statute became effective
on January 1, 2009; the prior RTKA statute was
enacted on June 21, 1954. Therefore, Tedford had the

ability to file his RTKA request and determine that
PSP has 823 pages in its investigative files at least as
far back as October 2, 1997 when he filed his motion
for discovery in connection with the first PCRA
proceedings. Even if the Court looks only at the

current version of the RTKA which governed the PSP
information referenced by Tedford, the statutory

mechanism for obtaining the information was
available to Tedford three years prior to the time that
he made an effort to obtain it. Tedford has articulated
no reason why he could not have, through the exercise
of reasonable diligence, filed his RTKA request with
20

the PSP between 1987 and 2010 instead of waiting
until 2011 to do so. Tedford failed to exercise due
diligence.
Putting that aside, if he had exercised reasonable
diligence by filing his claim based on the PSP index
within 60 days of receiving it on March 4, 2011, he
could have advanced a colorable argument that the
after-discovered evidence exception to the PCRA time
bar applied and he might have been eligible to have
the claim decided on the merits. Instead, Tedford
waited to file his claim based on the PSP index until
after 1,368 days had passed from the date that he
could have filed it. Tedford failed to exercise due
diligence.13
On the question of whether Pennsylvania’s PCRA
jurisdictional provision is fundamentally fair, it is
instructive to note that a motion by a federal prisoner
for post-conviction relief under 28 U.S.C. § 2255 is
subject to a one-year time limitation that generally
runs from the date on which the judgment of
conviction becomes final. Clay v. United States, 537
U.S. 522, 524 (2003). This Court has consistently

The fact neither the FCDO nor current PCRA
counsel exercised reasonable diligence in filing the
after-discovered evidence claim based on the PSP
index supports a reasonable inference that all counsel
lacked confidence in the merits of the claim and
instead only subsequently invoked it as a
disingenuous delaying tactic following the federal
district court’s refusals to grant discovery.
13

21

rejected due process challenges to that one-year
limitations period.
Although it is true that Section 2255’s limitation
period is not jurisdictional in nature and is subject to
equitable tolling, Pennsylvania’s collateral review
limitation period also permits the consideration of
claims beyond the one-year period when one or more
of three equitable circumstances are proven by the
petitioner. See 42 Pa.C.S.A. § 9545(b). Indeed,
through this mechanism a form of equitable tolling is
built into the PCRA statute’s jurisdictional limitation
period. Although the scope of this equitable tolling
may not be as broad as that afforded to prisoners
collaterally attacking their federal convictions, it
nonetheless comprises a critical component of a
regimen for processing state collateral challenges to
criminal convictions that is fundamentally fair.
For these reasons, the Pennsylvania Supreme
Court’s enforcement of the PCRA statute’s
jurisdictional time limitation is consistent with this
Court’s jurisprudence.
2. Tedford’s petition is grounded in a fundamental
misunderstanding of the governing law.
The core premise underlying Tedford’s petition
to this Court is that: (1) the PSP documents relating
to Ms. Revak’s death are 823 pages long but the
discovery provided to the defense before trial was 375
pages in length; and (2) before the government can
take his life, Tedford must be given an opportunity to
review the entire contents of the Commonwealth’s
files to ensure that no materials exist that might have
been suppressed in violation of the rule set forth in
22

Brady v. Maryland, 373 U.S. 83 (1963).

That
argument belies a fundamental misunderstanding of
the law governing Brady claims.
As noted by the federal district court, the fact that
the PSP file allegedly contains more records than
were made available to Tedford’s defense does not
support the inference that the prosecution improperly
suppressed information.
As the Pennsylvania
Supreme Court has cogently observed, citing to this
Court’s precedent:
…By way of PCRA discovery background,
it is important to reemphasize that, although
substantive Brady claims may be cognizable
under the PCRA, Brady does not govern the
question of the scope of discovery under the
PCRA. District Attorney's Office for Third
Judicial Dist. v. Osborne, 557 U.S. at 68–69,
129
S.Ct.
2308.
Furthermore,
the
Commonwealth is correct that there is no

general right, under Brady…to inspect the
prosecutor's file. Brady imposes an affirmative
and continuing duty upon the government to
disclose exculpatory information, but it
establishes no specific right in the defendant
to review the Commonwealth's file to see, for
example,
if
he
agrees
with
the
Commonwealth's
assessment
and
representation. The U.S. Supreme Court has
explained the operation of Brady as follows:

A defendant's right to discover
exculpatory evidence does not include
the unsupervised authority to search
through the Commonwealth's files....
23

Although the eye of an advocate may
be helpful to a defendant in ferreting
out information, Dennis v. United
States, 384 U.S. 855, 875, 86 S.Ct.
1840, 1851, 16 L.Ed.2d 973 (1966),
this Court has never held—even in the
absence of a statute restricting
disclosure—that a defendant alone
may make the determination as to the
materiality of the information. Settled
practice is to the contrary. In the
typical case where a defendant makes
only a general request for exculpatory
material under Brady v. Maryland ...,
it is the State that decides which
information must be disclosed. Unless

defense counsel becomes aware that
other exculpatory evidence was
withheld and brings it to the court's
attention, the prosecutor's decision on
disclosure is final. Defense counsel has
no constitutional right to conduct his
own search of the State's files to argue
relevance. See Weatherford v. Bursey,
429 U.S. 545, 559, 97 S.Ct. 837, 846,
51 L.Ed.2d 30 (1977) (“There is no
general
constitutional
right
to
discovery in a criminal case, and
Brady did not create one”).

Pennsylvania v. Ritchie, 480 U.S. at 59–60,
107 S.Ct. 989 (additional
footnotes omitted).

24

citations

and

Commonwealth v. Williams, 86 A.3d 771, 787-789 (Pa.
2014) (emphasis added).
Tedford’s insistence that he is entitled by law to
see the entirety of the contents of the government’s
investigative file is in clear derogation of this Court’s
unambiguous precedent on the subject.
Notably absent from the petition for writ of
certiorari is mention of the fact that notwithstanding
everything articulated supra, undersigned counsel –
understanding the solemn ongoing duty of the
Commonwealth to disclose to Tedford information
that constitutes Brady material which has not
previously been turned over to him, assuming that the
concern expressed by Tedford about the existence of
823 pages of records in the PSP file is genuine, and
recognizing that Tedford has been sentenced to death
– has personally reviewed the PSP files at issue. The
purpose of that voluntary review was to confirm that
no information that would fall under the Brady rule
exists in the Commonwealth’s possession. However,

because Tedford has refused to identify with
specificity the 375 pages of discovery that he states
were provided to him prior to trial, it is impossible for
the Commonwealth to know what was produced in
pretrial discovery and what was not, much less
determine whether undisclosed Brady material exists.

The Commonwealth’s files, much of which were
generated over 30 years ago, lack any documentation
on that subject. Because Tedford has possession of
the 375 pages that he alleges were produced to him in
pretrial discovery, and because the burden rests with
him in making a PCRA Brady claim to prove by a
preponderance of the evidence that admissible,
25

favorable, material evidence was suppressed, and
because he has no legal right whatsoever to inspect or
examine
the
Commonwealth’s
files,
the
Commonwealth respectfully requested in the state
PCRA court that Tedford produce to the
Commonwealth a complete copy of the 375 pages that
he repeatedly references.
The Commonwealth
pledged that upon receipt of those documents, the
Commonwealth would do another good faith review of
the 823 pages in the PSP file to determine whether
the law requires anything additional to be produced to
Tedford.
Tedford has incongruously refused to provide the
Commonwealth with the 375 pages of pretrial
discovery that he claims to have in his possession
notwithstanding the fact that doing so would facilitate
the very result he claims to seek in this litigation.
Inexplicably, he is preventing the Commonwealth
from fulfilling its obligations pursuant to Brady in the
manner prescribed by law while simultaneously
falsely claiming that he is the victim of malfeasance
by the government.
3. None of the compelling reasons for granting a
petition for writ of certiorari outlined in Rule 10 are
present. See Rule 10. The petition does not identify a
conflict between the decision below and the decision of
another state court of last resort or United States
court of appeals on an important federal question, nor
does it identify an unsettled question of federal law
that has not, but should be, decided by this Court.
The petition also does not explain how the decision of
the Pennsylvania Supreme Court conflicts with the
relevant decisions of this Court. As a result, the
26

petition should be denied without examination of its
merits.
CONCLUSION
The Court should deny the petition.
Respectfully submitted,
JOSH SHAPIRO
Attorney General
Commonwealth of Pennsylvania
JENNIFER C. SELBER
Executive Deputy Attorney
General
Director, Criminal Law Division
JAMES BARKER
Chief Deputy Attorney General
Appeals & Legal Services Section
WILLIAM R. STOYCOS *
Senior Deputy Attorney General
Counsel of Record for Respondent
Office of Attorney General
16th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 787-6348
Date: February 13, 2021

27

